No. 19-96

In tlje Supreme Court of tfje ®mteb States?
Lincoln Rymer, Petitioner
v.

UT at Martin, et al., Respondents
On Petition for Certiorari
to the
United States Court of Appeals for the Sixth Circuit

SUPPLEMENTAL BRIEF

Lincoln Rymer
154 Fowler Cemetery Lane
Hurricane Mills, TN 37078
931-296-3001

RECEIVED
SEP 3 0 ?m
OFFICE OF THE CLERK
SUPREME COURT. U.S.

Table of Contents
Table of Authorities

u

A.
New nationwide epidemic of indoctrination
and intimidation of college students by professors
1
1.
Senator Kerry Roberts demands students
be allowed to voice their opinions without
faculty intimidation and indoctrination.......... 1
2.
The news media is reporting a massive
crackdown on student speech by colleges........2
3.
The Supreme Court of Rhode Island has
recently allowed a similar case with similar
issues to proceed................................................... 3
B.
Rymer’s case is one of the first of its kind,
but it will not be the last. At minimum, this
Court should hold the Rymer cert petition in
abeyance because the immunity issues presented
will likely recur in Felkner and undoubtedly in
other cases with trained counsel better equipped
to argue the common issues involved
3

i

Table of Authorities
Cases
William Felkner v. Rhode Island College,
, 16-17 (R.I. 2019).............
A.3d.

3

Rules
Sup. Ct. R. 15

1

u

SUPPLEMENTAL BRIEF ON
PETITION FOR CERTIORARI
The Petitioner files this Supplemental Brief
under Sup. Ct. R. 15.8 in light of recent develop­
ments relevant to this case.
On September 2, 2019, Tennessee Senator
Kerry Roberts called for an end to the hostile learn­
ing environments created by the “indoctrination and
intimidation” of college students by faculty who re­
taliate against students that voice opinions opposed
by the faculty. On September 5, 2019, the National
Review reported that free speech retaliation against
college students by professors is a nationwide epi­
demic. On September 17, 2019, Petitioner found a
recent Supreme Court of Rhode Island ruling with
circumstances and issues similar to the Petitioner’s.
The Court ruled in favor of the aggrieved student.
A. New nationwide epidemic of indoctrination
and intimidation of college students by profes­
sors
1. Senator Kerry Roberts demands students be
allowed to voice their opinions without facility
intimidation and indoctrination.
Tennessee Senator Kerry Roberts’s statements on
the abuse of college students by professors has at­
tracted nationwide news coverage:
“Conservative parents are often spending (or
borrowing) tens if not hundreds of thousands
1

of dollars to participate in an elaborate bait
and switch. They sign up their children for
education and advancement and instead re­
ceive intimidation and indoctrination.”1
“Hostile learning and working environments
are suddenly acceptable when the leftists are
zealously doing their duty of quashing any
dissent. Repulsive stories abound of First
Amendment rights abused, shamed or de­
nied. There are no safe spaces for conserva­
tives on many campuses.”2
Prior to Senator Kerry Roberts’s call-to-action,
Petitioner thought he was alone in his suffering
caused by the Respondents. He is not.
2. The news media is reporting a massive
crackdown on student speech by colleges.
On September 5, 2019, the National Review re­
ported on a study from August 2019 that found 73
percent of Republican students have withheld politi­
cal views in class for fear their grades would suffer.3
“Are professors tyrants?”, the headlines are asking.4

1 www.newsweek.com/tennessee-senator-ban-higher-educationabortion-1458420
2 www.nashvillescene .com/news/pith-in-the -wind/article/21086162/good-grief-kerry-roberts-higher-learning-isnt-bad
3 www.nationalreview.com/2019/09/poll-73-percent-of-republican-students-have-hidden-their-politics-over-fears-aboutgrades/
4 www.thecollegefix.com/are-professors-tyrants-just-ask-conservative-students/

2

3. The Supreme Court of Rhode Island has re­
cently allowed a similar case with similar is­
sues to proceed.
The Supreme Court of Rhode Island recently
ruled that a jury should consider a former Rhode Is­
land College graduate student’s claims that the col­
lege violated his free-speech rights and retaliated
against him based on his opinions. William Felkner
v. Rhode Island College,____A.3d.____ , 16-17 (R.I.
2019). The Court remanded for a determination of
the individual defendants’ entitlement to qualified
immunity.
B. Rymer’s case is one of the first of its kind, but
it will not he the last. At minimum, this Court
should hold the Rymer cert petition in abey­
ance because the immunity issues presented
will likely recur in Felkner and undoubtedly in
other cases with trained counsel better
equipped to argue the common issues involved.
The recent nationwide outbreak of free speech re­
taliation against students by colleges validates the
intimidation and indoctrination claims brought by
Rymer. Before the mass media began reporting the
intimidation and indoctrination of college students
by institutions of higher education, the undersigned
attempted to hire a lawyer to take this case. Because
the mass media had yet to report such incidents, no
lawyer would take me seriously. So, I had to repre­
sent myself. Because of that, Judge Victoria Roberts

3

and the appellate staff attorney would not take me
seriously.
The intimidation and indoctrination of college
students is a life-and-death issue. After my profes­
sors constructively expelled me by setting me up for
failure with an unfeasible multi-million-dollar stu­
dent project, I went from engineering school to a life
of low-wage hard labor, merely for voicing conserva­
tive opinions on education. I’ve been told that my life
is like one of Justice Thomas’s favorite characters,
Howard Roark, from Ayn Rand’s The Fountainhead.
I have had it rough, despite the fact that my opinions
on education are now echoed by The Establishment,
including Justice Breyer5 and Chief Justice Roberts6.
At minimum, this Court should hold my petition
in abeyance until a lawyer files a certiorari petition
in a similar case presenting similar issues. Felkner
is one such case. In my case, the Sixth Circuit, de­
spite this Court's holding in Terrell, ruled that as­
signing a student a project is within the scope of a
teacher's employment and therefore the professors
are entitled to qualified immunity. Terrell v. Morris,
493 U.S. 1 at 3 (1989) (prohibiting the Sixth Circuit
from affirming rulings never made by the district
court). By the Sixth Circuit’s ruling in my case, it is
now within the scope of a teacher's employment to
constructively expel a student by assigning an
5 legal academia has "left terra firma to soar into outer space"
6 » Pick up a copy of any law review that you see, and the first
article is likely to be, you know, the influence of Immanuel Kant
on evidentiary approaches in 18th Century Bulgaria, or some­
thing."

4

unfeasible project such as "design and build the
Brooklyn Bridge" or "design and build a Boeing 737."
Similarly, Felkner challenges his professors’ qual­
ified immunity defense. The contours of the qualified
immunity doctrine in the context of higher education
are ill-defined, and it might be best if Felkner has a
first crack at it.

Respectfully submitted,
^_-

September 26, 2019
Lincoln Rymer
154 Fowler Cemetery Lane
Hurricane Mills, TN 37078
931-296-3001

5

